U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054

Re:

Michael Ludwikowski v. United States of America,
S.Ct. No. 19-1293

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 4, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on July 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 17, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

19-1293
LUDWIKOWSKI, MICHAEL
USA

LISA ANN MATHEWSON
THE LAW OFFICES OF LISA A. MATHEWSON,
LLC
123 S. BROAD STREET
SUITE 810
PHILADELPHIA, PA 19109
215-399-9592
LAM@MATHEWSON-LAW.COM

